                            MEMORANDUM 


                   Construction Workers Camp at the 

                   New Embassy Compound, Baghdad 


Background.

       During my visit to Baghdad in November, 2005, I spent a day
observing the New Embassy Compound (NEC) construction site. I walked
and rode through most of the site, including the camp which housed the
construction workers, spoke with many members of the management group
from the Department of State (Department) and from the general contractor
First Kuwaiti Trading and Contracting Company (FK), and spoke randomly
with workers. The visit to the NEC was a routine part of my visit to
Baghdad and was not prompted by any specific allegations of wrongdoing. I
remember being impressed by the recreational and support facilities and the
apparent high morale of the work force which consisted of many different
nationalities. Nothing came to my attention evidencing any Trafficking in
Persons (TIP) violations or human rights abuses.

Allegations.

       In the months following my visit, various allegations came to my
attention regarding abuses and misconduct at the NEC. Some of these
allegations included the following:

   •	 Most of the Third County Nationals (TCNs) working at the NEC were
      malnourished. TCNs were forced to eat leftovers from American
      personnel off of the dirt floor of their tent or on cardboard boxes.
      Food, when available, was put in a trough similar to pig farms.

   •	 All workers had their passports taken away to prevent them from
      leaving.
   •	 All workers were deceived about their job location. Many signed
      contracts in their home countries to work in the hotel industry in
      Dubai. They were given plane tickets for Dubai but once in the air
      were told they were going to Iraq instead.

   •	 Workers were snuck onto the NEC in convoys to avoid detection
      since they were not supposed to be there due to home country bans.

   •	 Most of the workers were not paid.

   •	 Construction managers routinely beat their workers.

   •	 Living facilities were characterized by poor sanitation and squalid
      living conditions.

   •	 Clinics lacked hot water and disinfectant, and had dirty beds and
      poorly trained staff. Drugs were disorganized and unintelligibly
      labeled.

Work Plan.

      In June 2006, I contacted the Multi-National Force – Iraq Inspector
General (MNF-I IG) to propose a joint review of the FK camp at the NEC.
At that time, we agreed to do a review on site between 15-20 August, 2006.
Since MNF-I IG had already done a TIP inspection, much could be gained
by each of us from a joint initiative.

      MNF-I IG provided me with their program for a review focused on
TIP and the fair and ethical treatment of a foreign work force. It consisted
principally of an initial in-brief with senior leaders and contracting officers
followed by private confidential sensing sessions with workers and
inspection of life support areas. A suggested list of typical questions to be
asked of workers was provided.

      I therefore agreed in June that I personally, along with my Deputy
Inspector General, would travel to Iraq to participate in the joint review in
August. However, in mid-July, I was informed that other higher priority
matters required MNF-I IG to postpone the NEC review indefinitely.



                                       2

      Nevertheless, my Deputy Inspector General and I went to Iraq in mid-
September, and on September 15, 2006, we carried out a review according to
the work plan suggested by MNF-I IG.

Our Review.

       Our review was necessarily limited in scope. It did not constitute an
audit. It consisted essentially of agreed-upon or limited procedures and was
designed to provide negative assurance rather than attestation. It consisted
of the following procedures:

      1) Interviews with senior Department leaders and contracting
         authorities in the U.S. prior to departure;

      2) Interviews with senior Department leaders and contracting
         authorities in Baghdad;

      3) Physical review of the entire NEC site, including walkthroughs of
         kitchen and dining room facilities, medical clinic, recreational
         facilities, computer café, telephone access areas, commissary,
         management offices, and other areas;

      4) Private interviews, outside the presence of any Bureau of Overseas
         Buildings Operations or FK representatives, with workers of
         Filipino, Indian, Nepalese, and Pakistani nationality;

      5) Physical inspection of the living quarters of each interviewee,
         together with observation of living quarters of other workers
         randomly selected as we walked around;

      6) Physical inspection of group facilities such as shower and lavatory,
         barbecue, religious, recreation and sports areas; and

      7) Questions randomly asked of workers encountered in the areas we
         observed.




                                     3

Responses from Interviewees.

      We received the following responses on the following subjects from
those workers interviewed:

      1) Passports:

            One half of the interviewees carried their passports on their
      person and one half requested FK to maintain them for security and
      convenience. Each of the latter believed they had free access to his
      passport and each had signed a form documenting he had requested
      that FK keep his passport for safekeeping and had voluntarily
      submitted it.

      2) Employment Contract:

            Each interviewee confirmed that he had a signed copy of his
      employment contract, which appeared in both English and his native
      language. Among other provisions, the contract set forth salary
      allowances, overtime, and annual leave entitlements for periods
      worked in both Iraq and Kuwait.

      3) Fees for Job:

             Most of the interviewees had paid some intermediary or agency
      a fee for obtaining his job. The fees ranged from one month of salary
      for Indian and Filipino to $1,200 for a Nepalese with a 26-month
      contract and a basic salary of $900/month.

      4) FK Performance of Contract:

             Aside from one Civil Foreman who had an issue regarding his
      job classification that was being worked out, each interviewee agreed
      that FK was abiding by the terms of the contract.

      5) Overtime:

             Each interviewee willingly sought and obtained overtime work.
      It was considered a benefit.



                                     4

6) Pay:

        Each interviewee acknowledged being paid on a regular
monthly basis, with one having the money sent directly to his family
at his request.

7) Resignation:

       Each interviewee believed that, subject to certain early
resignation provisions which he understood in his contract (a standard
provision of which was a $2,500 fee in the event of resignation before
completion of one year of service to cover medical test, travel from
his country of origin, residency fees, and other expenses), he had the
right to quit and return home at any time, as well as to quit and move
to another company at the conclusion of his contract.

8) Mistreatment:

       No interviewee was aware of any worker who had been
mistreated, abused or subjected to pressure to engage in sexual
activities.

9) Insurance Coverage:

      Each interviewee was aware that he had medical and dental
coverage at the medical clinic and that death benefits and applicable
workmen’s compensation were provided for in his contract.

10) Food:

       Each interviewee ate his meals at the dining facilities and rated
the food “good” or higher.

11) Recreation:

      All interviewees, to the differing extent of their interests, were
aware of privileges they had to commissary, religious, sports and
other MWR facilities.



                                5

       In our random approaches to individual workers other than the
interviewees, we generally made inquiries regarding the matters in 5, 6, 8,
10 and 11 above. We did not receive any responses that differed from the
interviewees.

Physical Inspection.

       Following the interviews, each interviewee was requested to show us
his living quarters. They were each in different sections of the camp. The
living quarters were dry trailers, generally separated into three equal-size
separate entry rooms, with overhead cover superior to that of the trailer area
I stayed in at the Embassy. Each room accommodated three or four workers,
was neat and clean, and was air conditioned. While in the various camp
sections, we randomly asked other workers to show us their quarters, which
they did. All were of the same general size and condition, and about half
contained a TV and/or a small refrigerator. Shower and lavatory facilities
were close by, plentiful, clean and functional.

      We saw six different dining facilities serving Egyptian, Philippine,
African, Lebanese, Pakistani and Indian cuisines to meet the different tastes
of most of the workers. The facilities were uniformly clean and efficient,
and the food appetizing. At least one of the facilities had a large TV for
workers to watch both during and after serving hours.

       In addition to recreational areas, which included makeshift basketball,
soccer and volleyball, we visited a small commissary with snacks and
personal items for sale and an internet café where workers could sign up for
internet access.

      An important facility was the medical unit we visited. It was
equipped with a pharmacy, emergency room, x-ray machine and dental suite.
The unit was clean, well-organized and had several medical staff members.
The medications were neatly arranged and appeared to be labeled in both
English and Arabic. Medical staff members we interviewed said they were
not aware of any medical unit visits by workers for injuries related to
beatings or abuse.




                                      6

Management Visit.

       Because my review was limited, I continued to seek additional
inspection from MNF-I IG. While that inspection was being scheduled, it is
my understanding that the Management Counselor and at least four other
senior officials from the Embassy, including the Regional Medical Officer,
visited the FK camp at the NEC to get a general idea of the conditions there.
They did not conduct any worker interviews because they were aware that I
had previously done some and that MNF-I IG intended to do more. Among
the views expressed by the group,

   •	 a hard cover dining facility they visited was impressively clean, well-
      lit and with a TV for workers to watch both during and after food
      service hours;

   •	 a tented dining facility they visited was clean, air-conditioned, and
      equipped with all basics;

   •	 a makeshift basketball court, internet café, and small commissary
      were all functional;

   •	 the medical unit was new and appeared well-equipped and well-staffed;

   •	 the Regional Medical Officer saw nothing that substantiated
      allegations of worker abuse or gross medical mismanagement such as
      dispensing of drugs labeled only in Arabic by non-Arabic speaking
      personnel; and

   •	 in general, the FK camp was adequate for its purposes and the basic
      needs of food, housing and sanitation were being met.

MNF-I IG Inspection.

      An MNF-I IG team spent 4 December 2006 inspecting the FK camp at
the NEC. In view of some specific additional allegations of possible abuses,
MNF-I IG returned for a second visit in December. MNF-I IG’s procedures
and experience were significantly more extensive than my own. MNF-I IG
found no evidence whatsoever at either visit of any abuses against TCNs at
the NEC.


                                      7

       Based on MNF-I IG’s inspection and its experience in inspecting life
support areas across Iraq -- during this time the NEC was 1 of 58 areas
inspected by MNF-I IG in Iraq – MNF-I IG advised me, among other things,
of the following inspection results:

      •	 the FK camp at the NEC was clean and well kept;

      •	 the living areas were at least the 50 sq. ft. per person required by
         MNF-I IG standards;

      •	 the food was quite good;

      •	 latrine and shower facilities were clean and well kept;

      •	 the medical facility was very extensive, with several doctors and a
         full dental clinic;

      •	 the medical and dental care provided to the workers was
         exceptional;

      •	 no worker had circumvented Iraqi entry procedures or bypassed
         Iraq’s immigration process;

      •	 most of the workers had their passports voluntarily held by
         management to protect against loss or being stolen, and all those
         stated they requested management to do so and were aware their
         passports were their private property; and

      •	 no evidence was found to indicate the presence of severe forms of
         trafficking, such as for sexual exploration, abduction, slavery, or
         removal of organs.

    On balance, MNF-I IG concluded that (except for recruitment fees illegal
in some workers’ country of origin) there was no evidence of TIP violations,
and of the 58 living support areas inspected by MNF-I IG, the FK camp at
the NEC “rated in the top third with above average quality of life
conditions”. A copy of MNF-I IG’s report to me is appended hereto as
Appendix A.


                                      8

Result:

       Based on the foregoing, nothing came to our attention as a result of
the foregoing procedures that caused us to believe that TIP violations or
violations of the type referred to under “Allegations” above occurred at the
FK camp at the NEC.




                                       Howard J. Krongard
                                       Inspector General
                                       U.S. Department of State




                   Along with
                                       William E. Todd
                                       Deputy Inspector General
                                       U.S. Department of State


Dated April 30, 2007




                                      9

